PAGE INTENTIONALLY LEFT BLANK
                PEACE CORPS
          Office of Inspector General
                               Mission
  To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
 goals set forth in the Peace Corps Act that Peace Corps Volunteers
   help the people of the countries in which they serve in meeting
   their needs for trained manpower, and help to promote a better
  understanding of the American people on the part of the peoples
served, and a better understanding of other peoples on the part of the
                           American people.



           Semiannual Report to Congress
           October 1, 2011–March 31, 2011
PAGE INTENTIONALLY LEFT BLANK
                                       PEACE CORPS OFFICE OF INSPECTOR GENERAL




                                                  Table of Contents
Highlights from this Report ..........................................................................................................1
       Message from the Inspector General ...................................................................................... 1
Management and Administration ................................................................................................4
       Agency Context and OIG Staffing .......................................................................................... 4
       Awards .................................................................................................................................... 5
       OIG Organizational Chart ....................................................................................................... 6
Advice and Assistance Provided to the Agency and Others ......................................................8
       Fraud Alert .............................................................................................................................. 8
       Policies and Procedures .......................................................................................................... 8
       Best Practices .......................................................................................................................... 8
       Status of PC/Morocco: Assessment of Medical Care and Death Inquiry ............................... 8
Audits ............................................................................................................................................10
   Headquarters Audits.................................................................................................................. 11
       Peace Corps Fiscal Year 2010 Financial Statement Audit ................................................... 11
       Annual Review of Peace Corps Fiscal Year 2010 Information Security Program ............... 12
   Audits of Overseas Operations ................................................................................................. 13
       PC/Belize: Audit ................................................................................................................... 13
       PC/Ethiopia: Audit ................................................................................................................ 14
       PC/Mexico: Audit ................................................................................................................. 15
       PC/Mozambique: Audit ........................................................................................................ 15
       PC/Togo: Audit ..................................................................................................................... 16
       PC/Ukraine: Audit ................................................................................................................ 16
Evaluations ...................................................................................................................................20
       Volunteer Delivery System: Follow-up Program Evaluation ............................................... 21
   Country Program Evaluations ................................................................................................... 22
       PC/Ethiopia: Country Program Evaluation ........................................................................... 22
       PC/Jamaica: Country Program Evaluation ........................................................................... 23
Investigations ................................................................................................................................26
   Legacy Cases ............................................................................................................................ 27
       Homicide Investigation and Judicial Activities at a Post in Central Africa ......................... 27
   Criminal and Misconduct Related Investigations ..................................................................... 27
       Former Country Director Pleads Guilty in U.S. Federal District Court ............................... 27
       Former Cashier Debarred at a Post in the South Pacific ....................................................... 27
       Misconduct Allegations ........................................................................................................ 27
       Conflict of Interest Involving a COTR ................................................................................. 28
       PROTECT Act Allegation at a Post in Southern Africa ....................................................... 28
       PROTECT Act Allegation at a Post in the South Pacific ..................................................... 28
       PROTECT Act Allegation at a Post in Southern Africa ....................................................... 28
       Mishandling of Grant Funds and Other Misconduct at a Post in West Africa ..................... 28
       Sexual Assault at a Post in West Africa................................................................................ 29
       Sexual Harassment at a Post in Central America.................................................................. 29
       Staff Fraternization with a Volunteer at a Post in Central America ..................................... 29
       Kickback Practices at a Post in East Africa .......................................................................... 30
       Embezzlement of Imprest Funds at a Post in Central America ............................................ 30
       Allegation of Mismanagement and Retaliation against a Volunteer at a Post in the South
       Pacific ................................................................................................................................... 30
       Misuse of a Military Postal Address at a Post in East Asia .................................................. 30
       Investigation of Federal Employees’ Compensation Act Recipients ................................... 30
   Coordination with Other Law Enforcement and Federal Entities ............................................ 31
       Continued Support from Regional Security Officers World-wide ....................................... 31
       Oversight Inquiry and Support.............................................................................................. 31
       Homeland Security Assistance with PROTECT Act Investigations .................................... 31
       Investigative Assistance of FECA Cases .............................................................................. 32
Tables ............................................................................................................................................34
       1: List of Reports: Audits and Program Evaluations ............................................................ 34
       2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use ......... 35
       3: Status of Reports Issued by OIG with Questioned and Unsupported Costs ..................... 36
       4: Status of Reports Issued by OIG with Funds to be Put to Better Use .............................. 37
       5: Recommendations on which Corrective Action has not been Completed........................ 38
       6: Summary of Investigative Activity ................................................................................... 40
       7: Summary of Hotline and Other Complaints ..................................................................... 41
       8: References to Reporting Requirements of the Inspector General Act .............................. 42
Appendices ....................................................................................................................................44
   A: Reporting of Peer Reviews .................................................................................................. 44
   B: Contract Audit Reports ........................................................................................................ 44
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL




                        Highlights from this Report
                            Message from the Inspector General


                        I am pleased to present the Peace Corps Office of Inspector General’s
                        (OIG) Semiannual Report to Congress for the period of October 1,
                        2010–March 31, 2011. As the Peace Corps celebrates its 50th
                        Anniversary this year, OIG remains committed to promoting and
                        increasing the effectiveness and efficiency of Peace Corps programs
                        and operations. During this reporting period we issued a follow-up
                        program evaluation report of ―the Volunteer Delivery System‖ the
                        processes that enable the agency to recruit and place Volunteers in the
                        field as well as eight post audit and evaluation reports. Our
                        investigative staff closed 29 investigations and made referrals to the
                        agency’s suspension and debarment official, which resulted in the
debarment of a former employee and a former personal services contractor.

The Audit Unit has continued its critical work in connection with the agency’s Financial
Statement Audit by assisting the agency in improving its overall financial health in accordance
with the requirements of the Federal Managers Financial Integrity Act and the Federal
Information Security Management Act (FISMA). During this reporting period, the Audit Unit
completed reports for post audits conducted in Belize, Ethiopia, Mexico, Mozambique, Togo,
and Ukraine. The Audit Unit initiated work on post audits of Rwanda and Albania. At
headquarters the Audit Unit initiated work on the formulation and execution of Peace Corps’
budget process, the tracking and monitoring of small grant funds, and the operations of regional
recruitment offices.

The Evaluation Unit completed reports for program evaluations conducted in Ethiopia and
Jamaica in addition to the report on the Volunteer Delivery System at headquarters. The
Evaluation Unit initiated work on program evaluations of Cambodia, Fiji, the Kyrgyz Republic,
Liberia, Romania, and Swaziland, and initiated an evaluation of the impact of the rule limiting
staff terms, ―The Five-year Rule,‖ both domestically and in the field. In addition, it launched a
review of the agency’s implementation of protocols and procedures in response to Volunteers
who have been victims of sexual assault. This review was initiated as a result of media reports
that highlighted returned Peace Corps Volunteers concerns about the agency’s responsiveness to
such assaults.

Our investigative efforts, in collaboration with the Assistant U.S. Attorney for the District of
Columbia, led to the conviction of a former Peace Corps country director. In December 2010,
the former country director pled guilty in U.S. District Court to one count of engaging in
unauthorized activities in a matter affecting the U.S. government. In February 2011, he was
sentenced to two years probation and ordered to pay $33,000 in restitution to the Peace Corps.


October 1, 2010 to March 31, 2011                                                         1
This case also resulted in a historical first for Peace Corps. Peace Corps’ Suspension/Debarment
Official debarred the former country director discussed above and another individual who
embezzled funds from Peace Corps from participation in the federal government contracting
process.

The Investigation Unit has also achieved significant gains in its Federal Employees’
Compensation Act (FECA) investigations, uncovering numerous examples of abuse in the
system, resulting in overall savings to the agency of $300,000. In addition, the Investigation
Unit investigated allegations of misconduct by staff and Volunteers including five Prosecutorial
Remedies and Other Tools to end the Exploitation of Children Today Act (PROTECT Act) cases
during this reporting period.

In 2009 the Peace Corps’ Director issued a policy on how agency staff members handle
confidential allegations made by Peace Corps trainees and Volunteers. The policy became a
Peace Corps Manual section in January 2011. Since longstanding OIG and Peace Corps policy
already provided Volunteers the ability to report allegations confidentially to OIG, my staff
worked with the agency to develop a training module on complying with the policy on handling
sensitive allegations.

Subsequently OIG participated in three training sessions for new overseas staff on the policy and
has worked with the agency to ensure the policy is included in the Volunteer Handbook. I have
also communicated directly to country directors the importance of reporting allegations to OIG
and maintaining the confidentiality of those making allegations, and I have provided country
directors with OIG materials and posters to distribute and display at posts overseas. In addition,
OIG has initiated an outreach committee to inform staff and Volunteers of the role of OIG
among other things, and we are looking for more ways to reach out to Volunteers throughout the
Volunteer lifecycle.

During this reporting period the agency made substantial progress to address OIG
recommendations, particularly in the areas of Volunteer safety and security, medical care, and
contract management. We commend the efforts of the chief compliance officer in supporting the
closure of 250 recommendations since the reporting period started on October 1, 2010.
We appreciate the cooperation of the Director, management, staff, and Volunteers, and I am
proud of OIG staff for their effort to promote efficiency and integrity in the Peace Corps.




      2                                                  Semiannual Report to Congress
Management and Administration




All the posters featured in this SARC were first unveiled at the OIG open house in
February. This poster shows the various entities with whom we work.
                   Management and Administration

Agency Context

As of March 31, 2011, there were 8,780 Peace Corps Volunteers and trainees serving in 77
countries at 71 posts. This total includes 401 Volunteers and trainees funded by the President’s
Emergency Plan for AIDS Relief (PEPFAR) to work on HIV/AIDS projects at 15 posts and 151
Peace Corps Response Volunteers serving short-term assignments in 34 countries (32 posts).

The Volunteers and their programs are supported by 952 American direct-hire staff: 207
overseas; 133 in the regional recruiting offices; and the remaining 612 at headquarters.
Approximately 2,045 locally hired personnel complete post staffing. The Peace Corps also has
corporate contracts domestically and overseas, principally for guard services and training, and
hires expert consultants, largely for training and financial management.


OIG Staffing

Jerry Black joined OIG as a senior evaluator in December 2010. Before coming back to the
Peace Corps he worked in the Dominican Republic as a consultant to USAID, coordinating
monitoring and evaluation activities for its agricultural development project (USAID/RED).
From 2006--2008 Mr. Black acted as an evaluation specialist and expert consultant to the Peace
Corps, focused on improving the agency’s monitoring, reporting, and evaluation systems. Mr.
Black has worked as an independent consultant for domestic and international development
organizations on a range of economic growth and poverty reduction initiatives. Mr. Black served
as a Peace Corps Volunteer from 1992—1994 in the Comoros Islands, where he worked as an
English teacher. He holds a bachelor’s degree in English Literature from Washington University
and a Master of International Affairs from Columbia University.

Senior Auditor Bradley Grubb was promoted to Assistant Inspector General for Audits. Mr.
Grubb has worked for Peace Corps OIG for two years conducting overseas audits and several
headquarters audits. He previously worked for the Department of Defense OIG.

At the end of this reporting period, the position of senior auditor is vacant. OIG is expects to fill
the position in the coming months.




       4                                                   Semiannual Report to Congress
                                PEACE CORPS OFFICE OF INSPECTOR GENERAL


Awards

The Council of Inspectors General
on Integrity and Efficiency
(CIGIE) presented OIG with two
awards of excellence on October
19, 2010. Assistant Inspector
General for Investigations Geoffrey
Johnson, Senior Evaluator Susan
Gasper, and Special Agent Mark
Supple received a Special Act
Award for the multidisciplinary
inquiry into the death of a
Volunteer and accompanying
assessment of health care in
Morocco. Expert Jeffrey Lee,             Pictured from l--r AIG/I Geoffrey Johnson, Senior Evaluator Susan Gasper, Special
                                              Agent Mark Supple, Senior Evaluator April Miller, and Expert Jeffrey Lee
Former Assistant Inspector General
for Audits Gerald Montoya, and Senior Evaluator April Miller received an award for OIG’s
performance audit of the agency’s process for soliciting, awarding, and administering contracts
that combined the talents of our audit and evaluations staff.




October 1, 2010 to March 31, 2011                                                                                5
                         OIG Organizational Chart




                                  Inspector General
                                   Kathy A. Buller

                             Deputy IG and Legal Counsel
                                   Joaquin Ferrao



          Executive Assistant                                 Expert
             Lisa Chesnel                                  Robin Walker



    AIG/Investigations              AIG/Audits              AIG/Evaluations
    Geoffrey Johnson               Bradley Grubb              Jim O'Keefe


         Sr. Investigator                Sr. Auditor              Sr. Evaluator
       Joseph Bodensteiner              Steven Kaffen             Jeremy Black


          Sr. Investigator               Sr. Auditor              Sr. Evaluator
           Joyce Shores                Snehal Nanavati            Susan Gasper


          Sr. Investigator               Sr. Auditor              Sr. Evaluator
           Mark Supple                 Joseph Wagner             Reuben Marshall

                                         Sr. Auditor              Sr. Evaluator
        Criminal Research                                        April Thompson
            Specialist                     vacant
                                                                      Miller
         Jeffrey Reichert
                                           Expert                 Sr. Evaluator
                                         Jeffrey Lee            Heather Robinson

                                                                 Program Analyst
                                                                   Danel Trisi




6                                                  Semiannual Report to Congress
Advice and Assistance Provided to the
Agency and Others




This poster was developed to highlight the important changes in the Peace Corps
Manual, section 271 and the role that OIG plays in protecting the confidentiality of
Volunteers/trainees.
              Advice and Assistance Provided to the
                       Agency and Others

Fraud Alert

In March 2011, OIG issued a fraud alert to Peace Corps Volunteers, their families and their
friends, cautioning them to be aware of telephone and Internet scams seeking money based upon
an overseas traveler’s unforeseen financial emergency. Because Peace Corps Volunteers
frequently travel throughout the world, their families and friends in the U.S. may readily fall
victim to these types of scams.


Policies and Procedures

OIG provided advice and assistance to the Peace Corps Senior Policy Committee by commenting
on drafts of new or updated policies and procedures. The agency is engaged in a robust effort to
update, and where appropriate, to develop policies and procedures. OIG’s proactive engagement
is intended to help support efforts to improve the effectiveness and efficiency of Peace Corps
programs and operations. Some of the proposed revisions are in response to earlier OIG
recommendations.


Best Practices

OIG auditors and evaluators presented best practices and common deficiencies noted by OIG to
overseas personnel. The auditors and evaluators led sessions during overseas staff training for
country directors, directors of programming and training, and directors of management and
operations. The presentations focus on how overseas personnel can improve the efficiency and
effectiveness of their roles, enhance overall compliance with policies and procedures, and avoid
common mistakes.


Status of PC/Morocco: Assessment of Medical Care and Death Inquiry

OIG continues to follow-up and report on the agency’s progress related to the Morocco
assessment and death inquiry. All recommendations are now closed.




      8                                                 Semiannual Report to Congress
Audits




PC/Mozambique Health Volunteer Megan Nelson displays clothing sewn by young
women in her community with her guidance.
                                            Audits

Overview

The Audit Unit conducts audits of agency operations that support the Peace Corps’ mission
including field activities at overseas posts, regional recruitment offices, and headquarters
functions. Audits are conducted in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States.

The objective of OIG audits is to independently examine the financial and administrative
operations of the Peace Corps; to promote economy and efficiency; and ensure compliance with
federal and Peace Corps regulations. Audits cover agency activities carried out at overseas posts
and among interrelated offices. Auditors provide conclusions based on document and data
analysis, interviews, and direct observation.

The Audit Unit oversees audits of the agency’s financial statements and information system
security and conducts audits of agency-wide programs managed by headquarters. OIG utilizes
contracts with an independent public accountant (IPA) for legislatively mandated audit work.

The Accountability of Tax Dollars Act of 2002 mandates an annual audit of Peace Corps’
financial statements. OIG oversees and serves as the contracting officer’s technical
representative for contracts with the IPA to perform the agency’s annual audit. To fulfill its
responsibilities, the Audit Unit monitors the IPA’s work to ensure that it is of acceptable quality,
in compliance with federal law and professional standards, and is completed within guidelines
established by the Office of Management and Budget (OMB).

The Audit Unit contracts with an IPA in connection with OIG’s responsibility for meeting
specific requirements set by the Federal Information Security Management Act. These
requirements include performing annual reviews of the Peace Corps’ information security
program and reporting related selected data to OMB.

The Audit Unit is currently conducting audits of Peace Corps’ budget formulation and execution
and of the regional recruitment offices. With the assistance of the Evaluation Unit, an audit is
being conducted on small grants management.

The Audit Unit uses a risk-based assessment to select overseas posts to review for operational
efficiency and effectiveness, financial stewardship, and compliance with agency policy and
federal regulations. At overseas operations auditors review various operations including imprest
fund management and cashiering, acquisitions and contracts, personal property management,
medical supply control, and personnel management. During this period, auditors completed
audits of Belize, Ethiopia, Mexico, Mozambique, Togo, and Ukraine. Post audits of Albania and
Rwanda are underway.

     10                                                   Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL



During our overseas post audits, OIG identifies reoccurring issues and trends. Our reports
frequently contain recommendations to headquarters for strengthening controls to detect and
prevent the systematic weaknesses noted. During this reporting period OIG continued to report
on posts’ difficulty in complying with the agency’s medical supplies policies and procedures.
OIG recommended improved property management systems and procedures to safeguard
personal property and prevent loss or theft. In addition, OIG repeatedly identified the lack of
initial security certifications and recertification for personal services contractors’. Posts are
required to request that embassy regional security officers conduct a background investigation of
personal service contractors prior to contracting and to obtain the security certifications verifying
that the individual is eligible to work for Peace Corps. OIG communicated these concerns in
previous audits and continue to monitor the agency’s progress in correcting these deficiencies.


Headquarters Audits
Peace Corps Fiscal Year 2010 Financial Statement Audit

OIG contracted with Urbach Kahn & Werlin LLP (UKW), an independent certified public
accounting firm, to audit the Peace Corps’ financial statements. UKW’s federal sector practice
was acquired by Clifton Gunderson LLP (CG) by merger on March 22, 2010. The contract
required the audit be done in accordance with U.S. generally accepted government auditing
standards; OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements; and the
Government Accountability Office/President’s Council on Integrity and Efficiency Financial
Audit Manual. CG’s audit reports for fiscal year (FY) 2010 included: (1) an opinion on the
financial statements, (2) a report on internal control, and (3) a report on compliance with laws
and regulations.

In the audit of the Peace Corps, CG found that the fiscal year 2010 financial statements presented
fairly, in all material respects, the financial position of the agency as of September 30, 2010, and
its net costs, changes in net position, and budgetary resources conformed with U.S. generally
accepted accounting principles. In addition, the firm reported that there were no material
weaknesses related to internal control. However, CG’s report on internal control did identify two
significant deficiencies:

       Business processes related to property, plant, and equipment accountability need to be improved.
       Improvements needed are related to recording, tracking, and physical verification of certain
       assets.

       Information system security controls need improvement. The auditor cited security management,
       contingency planning, access controls, and configuration management as areas needing
       improvement.

For the FY 2010 audit, a significant deficiency is defined as a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. A material weakness is defined as a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable

October 1, 2010 to March 31, 2011                                                              11
possibility that a material misstatement of the entity’s financial statements will not be prevented
or detected and corrected on a timely basis. CG found no instances of reportable noncompliance
with the laws and regulations it tested or other matters that are required to be reported under
Government Auditing Standards or OMB guidance.

In connection with the contract, OIG reviewed CG's report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
U.S. generally accepted government auditing standards, was not intended to enable us to express,
and OIG did not express, opinions on Peace Corps’ financial statements, internal control, or
conclusions on compliance with laws and regulations. CG was responsible for the auditor's
reports issued on November 9, 2010, and the conclusions expressed in the reports. However, our
review disclosed no instances where CG did not comply, in all material respects, with U.S.
generally accepted government auditing standards.

As required by OMB Circular A-136, Financial Reporting Requirements, the auditor’s reports
were published within the Peace Corps FY 2010 Performance and Accountability Report. In
addition, a separate letter describing internal control weaknesses, which do not meet the
definition of a significant deficiency, was issued directly to Peace Corps’ management.


Annual Review of Peace Corps Fiscal Year 2010 Information Security Program

The Federal Information Security Management Act (FISMA) mandates that federal agencies
establish effective information security protections and a program to secure its information
systems from unauthorized access, use, disclosure, modification, and other harmful impacts.
These requirements must be met through adherence to specific guidelines established by the
National Institute of Standards and Technology. FISMA also requires OIGs to annually review
their agency’s information security programs. OMB is responsible for reporting to Congress on
the overall progress of the federal government in meeting FISMA requirements. This is
accomplished through an online data collection tool that is used by agencies to report to OMB
annually. Federal agencies and their respective OIGs are required to submit their responses
regarding FISMA compliance to OMB. The data collected in response to the OMB requirements
are designed to measure an agency’s progress.

OIG contracted with CG to perform the annual review of the Peace Corps’ information security
program. CG assisted OIG in preparing OMB responses for FISMA and provided reports
associated with reviewing a representative sample of Peace Corps’ information systems.
Overall, the review concluded that the Peace Corps has made progress over the last few years in
addressing its information security weaknesses and becoming fully compliant with FISMA. By
the end of FY 2010 the Peace Corps had issued Authorizations to Operate (ATO) for 88 percent
of its information systems. The agency continues to maintain an up-to-date comprehensive
system inventory in accordance with Federal Information Processing Standards. However, the
Peace Corps still faces some important challenges in becoming fully FISMA compliant. For
example, the agency reported to OMB in FY 2010 that one of eight agency information systems
needed to be fully certified and accredited to meet FISMA requirements, and OIG determined
that for three of eight systems, contingency plans had not been tested in accordance with federal
policy.

     12                                                  Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL



Although some progress was made during FY 2010, several security issues from previous
FISMA annual reviews were brought to management’s attention because they had not been fully
remediated. The more significant issues include:

       Certification and accreditation of 100 percent of Peace Corps’ information systems
       Implementation of adequate controls over the Plan of Action and Milestone process
       Completion of risk assessments and system security plans
       Implementation of adequate controls over the vulnerability assessment process
       Completion and implementation of adequate contingency planning controls over the agency’s
       information system environment
       Completion of updates to information security policy
       Implementation of sufficient controls over change management procedures
       Establishment of effective internal control over portable and mobile devices

Achieving full FISMA compliance will require effective leadership in the Office of the Chief
Information Officer (OCIO) in fostering a cooperative approach that serves to enhance
opportunities for improving IT security. There are significant challenges ahead, so it is critical
that Peace Corps managers understand their roles and responsibilities and take timely corrective
actions to effectively remediate the issues associated with the IT security environment.


Audits of Overseas Operations

PC/Belize: Audit
IG-11-04-A

OIG issued its audit report of PC/Belize in March 2011. The Peace Corps began its program in
Belize in 1962. Since then, over 1,878 Volunteers have served there. At the time of the audit,
approximately 160 Volunteers were engaged in four project areas: education, youth
development, rural community development, and environmental conservation.
OIG found the post’s financial and administrative operations were functioning effectively and in
overall compliance with agency policy and federal regulations. OIG did identify certain
operations requiring management action to ensure continued efficient and effective use of Peace
Corps’ resources. OIG found that personal services contracts issued by the post, with
performance period of less than one year, included amounts for statutory holiday pay that were
significantly higher than required by statute. In addition, the post had not requested updated
security certifications for 12 personal services contractors. During the audit, the post’s director
of management and operations requested and received from the embassy’s regional security
officer nine of the 12 security certifications, but had not received the remaining three prior to
contracting.

OIG also found that the post did not retain in the government purchase card transaction files
copies of purchase requests and/or documentation for the receipt of the goods and services
purchased.


October 1, 2010 to March 31, 2011                                                          13
In addition, OIG found the post had not determined whether it had valid title to three houses
given to the post by the government of Belize. Further, the post had not fully considered the
impact of accepting and maintaining the houses; whether keeping the houses was economically
advantageous to the Peace Corps; and additional ramifications of ownership.
Management concurred with all 10 recommendations. At the end of the reporting period, 6
recommendations are closed and 4 recommendations remain open.

Funds to be Put to Better Use
Recommendation: A.1 Corrections made to the holiday pay rate on short-term PSC contracts --
$8,505


PC/Ethiopia: Audit
IG-11-02-A

OIG issued its audit report of PC/Ethiopia in February 2011. The Peace Corps began its program
in Ethiopia in 1962. Since then, over 3,085 Volunteer have served there. The program was
suspended between 1977 and 1995, and again in 2000 due to security concerns during the war
between Ethiopia and Eritrea. The Peace Corps returned to Ethiopia in 2007. At the time of our
audit, 76 Volunteers were engaged in one project area: health – HIV/AIDS.

OIG determined that the post’s financial and administrative operations needed improvement and
did not fully comply with agency policies and federal regulations. OIG identified weakness in
imprest fund management, Volunteer living allowance procedures, personal property and vehicle
management, and medical supply control.

The post inappropriately included USD equivalents in several post leases. Because of hyper-
inflation and a significant devaluation of the Ethiopian birr, landlords requested option period
payment increases using the U.S. dollar equivalents, resulting in substantially higher and
unanticipated lease costs. Further, the country director signed the lease for her residence. Prior
to signing the lease, the post sent it to the Office of Acquisitions and Contract Management
(OACM) for review. OACM’s response raised technical issues regarding the lease and delegated
additional procurement authority but had no comment regarding the lease’s signatory.

Controls over President’s Emergency Plan for AIDS Relief (PEPFAR) funds were inadequate.
Volunteers did not always submit receipts as required and the administrative unit did not
compare the receipts submitted by Volunteers with the approved project budgets. At the time of
the audit, the post’s records showed $4.2 million of PEPFAR funds authorized and unused from
prior year requests.

Management concurred with 25 recommendations and did not concur with one recommendation.
At the end of the reporting period, 18 recommendations are closed and 8 recommendations
remain open.




     14                                                 Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL


Funds to be Put to Better Use
Recommendation: C.1 Five leases improperly included payment terms in U.S. dollar amounts
resulting in the post paying significantly higher amounts due to the hyper-inflation and the
devaluation of local currency - $82,000


PC/Mexico: Audit
IG-11-01-A

OIG issued its audit report on PC/Mexico in February 2011. The Peace Corps began its program
in Mexico by signing agreements with Mexico’s National Council for Science and Technology
in November 2003. A partnership agreement with the Ministry of the Environment and Natural
Resources was signed in June 2006. In accordance with these agreements, the post places skilled
Volunteers in working relationships with partner organizations. Since 2003, over 160 Volunteers
have served there.

In general, the post’s financial and administrative operations were functioning effectively and
complied with agency policies and federal regulations. However, OIG identified several
financial and administrative operations not in compliance with agency policy and guidance. The
post had not properly implemented the policies and procedures necessary to control and
safeguard medical supply inventory. The post also did not have an adequate process to oversee
grant projects and did not perform the required surveys to ensure Volunteer allowances were
sufficient.

Management concurred with all 27 recommendations. At the end of the reporting period,
23 recommendations are closed and 4 recommendations remain open.


PC/Mozambique: Audit
IG-11-05-A

OIG issued its audit report on PC/Mozambique in March 2011. The Peace Corps began its
program in Mozambique in 1998. Since then, over 633 Volunteers have served there. At the
time of the audit, 125 Volunteers were engaged in two project areas: education and health –
HIV/AIDS.

OIG determined that the post’s financial and administrative operations and its compliance with
agency policies and federal regulations required improvement in several key areas. The post
lacked adequate control of personal property and vehicles. Specifically, the post had not
established proper separation of duties over property management, required periodic inventory
reconciliations were not performed, and the property database contained numerous discrepancies.
Further, vehicle usage logs were not reviewed by management to ensure vehicles were used for
official business.

Security certifications or updates had not been obtained for 15 of 28 personal services
contractors, and intelligence background certifications had not been obtained from staff.


October 1, 2010 to March 31, 2011                                                           15
In addition, the imprest fund safe was not properly secured, interim cash advances were not
cleared in a timely manner, medical supply inventory records were not kept current, and not all
staff received an annual evaluation.

Management concurred with all 24 recommendations. At the end of the reporting period, 19
recommendations are closed and 5 recommendations remain open.


PC/Togo: Audit
IG-11-03-A

OIG issued its audit report on PC/Togo in March 2011. The Peace Corps began its program in
Togo in 1962. Since then, over 2,400 Volunteers have served in Togo. At the time of the audit,
approximately 115 Volunteers were engaged four project areas: business development,
education, environment, and health—HIV/AIDS.

OIG found the post’s financial and administrative operations were functioning effectively and in
overall compliance with agency policy and federal regulations. OIG did identify certain
operations requiring management action to ensure continued efficient and effective use of Peace
Corps’ resources. OIG found the post’s inventory could not be verified to existing inventory
records because the inventory records had not been kept current. In addition, the post had not
submitted its financial asset certification report for FY 2009 to the Office of the Chief Financial
Officer. The post’s contract files for 13 personal services contractors did not contain current
security certifications. During the audit, the post’s director of management and operations
(DMO) requested and received from the embassy’s regional security officer eight of the 13
security certifications. In addition, most of the 36 security guard contracts did not include
documentation as to the basis of award or a completed intelligence background information
certification.

OIG also found the post had not maintained adequate vehicle files to include individual vehicle
maintenance records/logs documenting services performed, or the cost of the services and
scheduled maintenance dates. The post's internal controls/segregation of duties over purchase
cards was inadequate. The primary purchase card holder was the post’s DMO and the approving
official was the general services officer (GSO). The GSO reported to, and worked for, the DMO.

Management concurred with all 10 recommendations. At the end of the reporting period all 10
recommendations are closed.


PC/Ukraine: Audit
IG-11-06-A

OIG issued its audit report on PC/Ukraine in March 2011. The Peace Corps began its program in
Ukraine in 1992. Since then, over 2,297 Volunteers have served there. At the time of the audit,
466 Volunteers were engaged in three project areas: community economic development, English
language education, and youth development.


     16                                                   Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

In general, the post’s financial and administrative operations were functioning satisfactorily and
complied with agency policies and federal regulations. However, OIG identified several
financial and administrative operations not in compliance with agency policy and guidance.

The post had not properly separated duties between preparing the bill for collection and
collecting and recording the cash proceeds for the value added tax (VAT) refund. In addition,
the billing officer prepared the bills for collection after the cashier collected the funds. The post
did not document the billing procedure or provide adequate training to the back-up billing officer
to issue bills for collection in the billing officer’s absence.

The post’s medical supply inventory control clerk did not independently track medical supplies
and instead relied on the medical assistant’s records. The post lacked a formal process and
controls for distributing medical supplies to Volunteers, and it could not ensure proper internal
control for potentially sensitive medication. The general services officer did not retain the
records supporting annual property inventory verification and did not identify and provide
explanations of overages/shortages resulting from the annual property inventory verification.

Management concurred with 26 recommendations and did not concur with 1 recommendation.
At the end of the reporting period, 14 recommendations are closed and 13 recommendations
remain open.




October 1, 2010 to March 31, 2011                                                           17
PAGE INTENTIONALLY LEFT BLANK
Evaluations




HIV/AIDS Volunteer Frease Belay, a Niger Volunteer who extended his Peace Corps
service in Ethiopia, with kids from his village in Ethiopia.
                                        Evaluations

Overview

The Evaluation Unit provides the agency with independent evaluations of Peace Corps programs,
operations, and management including overseas posts and domestic offices and programs. It
promotes greater efficiency and effectiveness by identifying best management practices and
recommending program improvements and means by which to comply with Peace Corps policies
and federal regulations.

During this reporting period, OIG continued to provide management with a comprehensive
assessment of how effectively overseas country programs and headquarters operations are
functioning. OIG completed a follow-up evaluation of the Volunteer Delivery System, which
includes the overseas programming, domestic recruitment, and applicant medical clearance and
assessment processes that enable the agency to deliver Volunteers to the field. Along with the
reports included below, evaluations of Peace Corps programs in Romania, Swaziland, Liberia,
Fiji, and the Kyrgyz Republic are underway, and OIG issued a preliminary report on the Peace
Corps Cambodia program. OIG also initiated an evaluation of the impact of the rule that caps
staff tenure (―The Five-year Rule‖) and launched a review of the agency’s implementation of
protocols and procedures in response to Volunteer victims of sexual assault.

Evaluations are conducted under the direction and guidance of the assistant inspector general for
evaluations and in accordance with the Quality Standards for Inspections published by the
Council of the Inspectors General on Integrity and Efficiency. Our country program evaluations
include extensive interviews, reviews of relevant documents, physical observations, and analysis
by evaluators. The evaluators interview Volunteers, and headquarters and post staff, as well as
key host country and U.S. government officials. In effecting their interviews, the evaluators
select a stratified judgmental sample of at least 20 percent of currently serving Volunteers based
on their length of service, site location, project focus, gender, age, marital status, and ethnicity.
Evaluators conduct the bulk of the Volunteer interviews at their homes and worksites and inspect
their housing using post-defined criteria. The period of review for a country program evaluation
is one full Volunteer cycle (typically 27 months).

For country program evaluations, OIG uses the following researchable questions to guide its
work:

       To what extent has the post developed and implemented programs intended to increase the
       capacity of host country communities to meet their own technical needs?
       To what extent has the post implemented programs to promote cross-cultural understanding?
       To what extent does training provide Volunteers the necessary knowledge, skills, and attitudes to
       integrate into the community and perform their jobs?
       To what extent has the post provided adequate programmatic, health, and personal safety support
       and oversight to Volunteers?


     20                                                     Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

       To what extent are post resources and agency support and oversight effectively aligned with the
       post’s mission and program and agency priorities?
       Is the post able to adequately administer the President’s Emergency Plan for AIDS Relief
       (PEPFAR) program, support Volunteers, and meet its PEPFAR objectives? (Only applicable to
       posts receiving PEPFAR funds.)

The findings and recommendations provided in OIG’s evaluation reports are reviewed by agency
stakeholders affected by the review to ensure: (1) that OIGs recommendations are feasible and
(2) that OIGs reports are useful to the agency in its effort to strengthen internal controls and
correct deficiencies.
Headquarters Evaluations


Volunteer Delivery System: Follow-up Program Evaluation
IG-11-01-E

Based on President Obama’s call to service, the Peace Corps committed to substantially increase
the number of Volunteers. Since that time, the agency has been identifying growth opportunities
by expanding current programs and opening Peace Corps programs in new countries. To
independently assess the agency’s capacity to carry out world-wide program growth without
decreasing Volunteer quality OIG evaluated the processes that enable the agency to deliver
Volunteers to the field, which is internally referred to as the Volunteer Delivery System (VDS).

Throughout the past twenty years, numerous internal and external assessments, including a 2003
OIG evaluation, identified needed improvements to the VDS. OIG approached this current
evaluation as a follow-up to the 2003 report to determine if progress had been made against the
recommendations. OIG’s follow-up review found that the Peace Corps did not fully address the
recommendations in the 2003 OIG evaluation report. Many of the corrective actions agreed to
by the agency in 2003 were either not initiated or were not fully carried out.

OIG found that the agency does not have a formalized definition of Volunteer quality and does
not systematically measure Volunteer quality levels. Staff members expressed concerns that
Volunteer quality and suitability for service is declining as they face pressure to meet growth
targets. OIG also found that the agency does not accurately track and measure its ability to
recruit and place Volunteers whose skills meet host country needs. Posts were encouraged to
request generalist Volunteers because of the agency’s difficulty recruiting applicants with deep
technical experience. This practice could impact Volunteer quality and effectiveness,
particularly in countries where specialized skills are needed to meet the project plan objectives.
Furthermore, the Office of Volunteer Recruitment and Selection is not given adequate time and
information to fill requests for Volunteers, particularly for new country entries. The shortened
timeline constrained the entire VDS and could affect the thoroughness of applicant assessment.

Management concurred with all 23 recommendations. At the end of the reporting period, 22
recommendations remain open. In 2009, the agency launched an overall redesign of the VDS.
The goal of the VDS redesign is to develop and upgrade the core business systems and
associated business practices required to manage all stages of the Volunteer lifecycle. The re-
design project is still underway. Its implementation, along with the implementation of the 23

October 1, 2010 to March 31, 2011                                                              21
recommendations in the OIG report, should strengthen internal controls, address the deficiencies
identified in the VDS, and prepare the agency to maintain Volunteer quality during growth.


Country Program Evaluations
PC/Ethiopia: Country Program Evaluation
IG-11-02-E

OIG issued its final country program evaluation of PC/Ethiopia in January 2011. Over 3,000
Volunteers have served in Ethiopia since the program began in 1962. The program closed twice
since then, and reopened in 2007. At the time of the evaluation there were 76 Volunteers serving
in one project areas: health--HIV/AIDS. The post is building relationships with additional
partners to establish new environment and education projects.

OIG found that PC/Ethiopia has achieved quality improvements to its Volunteer training
programs and Volunteers are well supported by programming, training, and administrative staff
members. It is also coordinating well with host country and project partners and Volunteer
project goals are aligned with host country development priorities.

However, OIG’s evaluation identified several areas that could be improved to increase the
country program’s overall effectiveness. OIG found that operating agreements did not clearly
detail project partner and post responsibilities for providing Volunteer housing. In addition, the
post has faced challenges effectively balancing the planning and budgeting of agency
appropriated funds associated with its President’s Emergency Plan for AIDS Relief (PEPFAR).

Additional findings relate directly to the safety and security of Volunteers:

       Some safety and security concerns cited in agency re-entry assessments, internal
       management assessment reports, and Peace Corps safety and security officer reports had
       not been fully addressed. For example, the post has not finalized procedures to gather
       forensic evidence following a Volunteer sexual assault.
       There are weaknesses in the post’s communication systems that may impact its ability to
       send and receive emergency notifications to Volunteers.
       The post had not collected or tracked funds or developed appropriate Volunteer safety
       training to minimize risks to Volunteers and trainees.

Management concurred with 12 recommendations, partially concurred with 6 recommendations,
and did not concur with the following recommendation: that the post pursue authorization from
the government of Ethiopia to use high frequency radio units as part of its communications
system. Management provided clarifications that were used to update information in the final
report. At the end of the reporting period, 13 recommendations remain open.




     22                                                   Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL


PC/Jamaica: Country Program Evaluation
IG-11-03-E

OIG issued its final country program evaluation of PC/Jamaica in February 2011. The Peace
Corps began its program in Jamaica in 1962. Since then, over 3,500 Volunteers have served
there. At the time of the evaluation, 66 two-year Volunteers were serving in two project areas:
green initiative, and youth as promise. In addition, 13 Peace Corps Response Volunteers
(PCRVs) were assigned to youth-related work focusing on sexual and reproductive health, and to
assignments related to youth and sports. The Peace Corps Response program provides
opportunities for Returned Peace Corps Volunteers to undertake short-term assignments that
average six months in duration.

Since 2009, leadership and programming changes significantly impacted the stability of the
country program. During this period there was frequent turnover in the country director position,
and morale declined when a country director implemented organizational and programming
changes that were not supported by staff or Volunteers. A decision to close the post’s health
project was made without the input of project partners, staff, and Volunteers, and there is no data
to support the project closure. The project plan changes were implemented before final approval
by headquarters offices. This project was closed after Volunteers had received health-related
pre-service training, which left some of them inadequately prepared to carry out the technical
aspects of their new assignments.

The post received a significant increase in the amount of PEPFAR funding, from $50,000 in FY
2008 to $500,000 in FY 2010, but did not develop a feasible budget to support the increased
funding level. The post did not integrate HIV/AIDS related activities into its programming, and
most Volunteers interviewed as part of the evaluation were not involved in HIV/AIDS related
activities. In addition, the post did not secure the staff resources necessary to implement
PEPFAR, and the safety and security coordinator assumed programming responsibilities. This
diverted important resources away from the Volunteer safety and security program in a country
that has a high crime rate in the general population.

The Peace Corps Response (PCR) program was not well implemented in Jamaica. Many PCRVs
were dissatisfied with their work sites due to unspecified job assignments. As a result, they
frequently could not achieve measureable outcomes in a short timeframe, which is a basic
element of PCR programming. The post has experienced a high number of Volunteer
resignations due to frustration with program support, challenges with cultural integration, and
difficulty securing meaningful and sustainable work. Some Volunteers believe they are doing
jobs that should be done by Jamaicans, are unable to transfer skills to host country nationals, or
feel that their roles as grant writers make partner organizations too dependent on Peace Corps.

One area where the post excels is providing safety and security support to Volunteers. The post
has a high-performing SSC who is trusted by Volunteers. Volunteers and staff are well-prepared
for emergencies, and the post is prepared to respond if a crime occurs against a Volunteer.

Management concurred with all 16 recommendations. At the end of the reporting period, 11
recommendations remain open.

October 1, 2010 to March 31, 2011                                                         23
PAGE INTENTIONALLY LEFT BLANK
Investigations




This poster explains the important role staff and Volunteers must play in reporting
information regarding violations of the PROTECT Act. In this reporting period five
allegations were reported.
                                    Investigations
Overview

OIG conducts investigations on waste, fraud, abuse, and mismanagement in Peace Corps
programs and operations, both domestically and overseas. OIG investigates allegations of
criminal and administrative misconduct allegations involving Peace Corps staff, contractors, and
Volunteers, including violations of Peace Corps and U.S. government standards of conduct. OIG
utilizes various techniques to investigate allegations of wrongdoing it receives from several
sources including: hotline complaints, the general public, Peace Corps Volunteers, trainees, staff,
contractors, other federal entities, and OIG’s own auditors and evaluators

Prior to September 1, 2008, the Investigation Unit managed and coordinated the agency’s
participation in the investigation and prosecution process of cases involving violent crimes
committed against Peace Corps Volunteers. In September 2008 this function was transferred to
the Peace Corps Office of Safety and Security; however, OIG has retained oversight of cases in
which the OIG was involved prior to the transfer. The Investigation Unit remains responsible for
investigating allegations of criminal wrongdoing, including violent crimes, committed by Peace
Corps staff members, contractors, and Volunteers.

During this reporting period the Investigation Unit conducted investigations of criminal and
administrative misconduct, allegations of sexual assault, and investigations of fraud associated
with the Federal Employee’s Compensation Act (FECA). Significantly, a multi-year
investigation concluded with the guilty plea of a former country director in U.S. District Court
on one count of engaging in unauthorized activities in a matter affecting the U.S. government.
Additionally, a FECA investigation involving a former employee resulted in approximately
$300,000 in savings to the Peace Corps.

During the reporting period OIG placed increasing emphasis on investigating contract
improprieties. Recent investigations have focused on the use of non-competitive contracting
authorities and improper behavior by personal services contractors (PSCs) impacting their status
as responsible government contractors. Previously, OIG referred cases involving the eligibility
of contractors to the agency. During this reporting period the agency appointed the chief
acquisition officer as the suspension/debarment official. Based on OIG referrals, this official
subsequently suspended and debarred a former employee who pleaded guilty in U.S. District
Court to one count of engaging in unauthorized activities in a matter affecting the U.S.
government, as well as a PSC who admitted to embezzling funds from the Peace Corps. These
are the first debarment actions ever undertaken by Peace Corps.




     26                                                  Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL


Legacy Cases
Homicide Investigation and Judicial Activities at a Post in Central Africa

A 1998 Volunteer homicide remains an open ongoing investigation. In February 2011, three
suspects in the case were detained by local authorities. OIG is working with the regional
security officer, the FBI, and a local attorney in support of efforts to properly secure additional
evidence in the case.


Criminal and Misconduct Related Investigations
Former Country Director Pleads Guilty in U.S. Federal District Court

In a previous SARC, OIG reported that a former country director at a South American post had
been involved in several financial irregularities whereby he abused his position and improperly
sold Peace Corps vehicles. In December 2010, Former PC/Ecuador Country Director Ronald
Ruybal pleaded guilty in U.S. District Court to one count of engaging in unauthorized activities
in a matter affecting the U.S. government. In February 2011, he was sentenced to two years
probation and ordered to pay $33,000 in restitution to the Peace Corps. After an OIG referral,
the agency debarred Ruybal and placed his name on the federal government suspension and
debarment list.


Former Cashier Debarred at a Post in the South Pacific

OIG referred a previously reported case to the Peace Corps’ Office of Acquisitions and Contract
Management for possible debarment. During the investigation OIG obtained an admission from
the cashier that she embezzled almost $4,000 from the post. While the money was subsequently
repaid, her actions were deemed a violation of the terms of her contract and Ethical Standards of
Conduct. In March 2011, OIG was informed that the former cashier had received official notice
of debarment and that her name will be placed in the US Government’s Excluded Parties List
System.


Misconduct Allegations

OIG opened an investigation into allegations of misconduct by a supervisory employee. The OIG
received multiple complaints that the employee was unfit to perform work duties. Allegations
included mismanagement and abuse of alcohol while on duty. Management was briefed on the
investigative findings and took several administrative and organizational steps to address the
situation.




October 1, 2010 to March 31, 2011                                                            27
Conflict of Interest Involving a COTR

OIG was provided information alleging that a contracting officer’s technical representative
(COTR) had arranged for future employment with the vendor and may have exceeded his/her
authority by engaging in cost negotiations. The OIG investigation found no evidence to support
any allegation of wrongdoing. OIG noted in its investigation that discretion to authorize or
revoke COTR certifications is within the authority of the contracting officer.


PROTECT Act Allegation at a Post in Southern Africa

OIG investigated an allegation that a Volunteer had sexual contact with a 14-year-old host
country minor, which is a violation of the PROTECT Act. The investigation established that the
Volunteer intended to marry the minor and had taken several steps to fulfill U.S. immigration
requirements to obtain a fiancé visa for him/her. Both the Volunteer and the alleged victim
denied the allegation that sexual contact occurred between them. Peace Corps policy prohibits
Volunteers from dating anyone under 18 and the Volunteer resigned in lieu of administrative
separation.


PROTECT Act Allegation at a Post in the South Pacific

OIG investigated an allegation that a Volunteer solicited sexual contact with teenage host
country minors. Allegations of sexual contact between the Volunteer and minors were not
substantiated by the OIG investigation. To ensure the Volunteer’s safety, he/she was reassigned
to another area of the country.


PROTECT Act Allegation at a Post in Southern Africa

OIG investigated an allegation that a Volunteer may have violated the PROTECT Act. The
allegation was investigated at the post by the U.S. Embassy’s regional security officer. Although
the allegations of sexual contact between the Volunteer and minors were not substantiated, the
investigation uncovered other misconduct by the Volunteer. The Volunteer resigned in lieu of
administrative separation.


Mishandling of Grant Funds and Other Misconduct at a Post in West Africa

A Peace Corps regional director informed OIG of financial irregularities involving Small Project
Assistance (SPA) grants handled by a program manager at the post. It was alleged that during
fiscal year 2010, the program manager significantly increased the budgets of four SPA project
grants without the knowledge or approval of post senior management. SPA grant funding is
provided to Peace Corps by the U.S. Agency for International Development (USAID). The
scheme involved false statements, conversion of public monies, and wire fraud implicating
federal law. The investigation however did not disclose evidence that the project manager
personally benefited from these actions, rather the funds were used to purchase items for Peace

     28                                                 Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL

Corps activities unrelated to the SPA projects. Shortly after OIG investigative intervention the
program manager decided to retire after 25 years of Peace Corps service. The U.S. Department
of Justice declined to prosecute the case.

OIG also determined that the same program manager knowingly caused two Volunteers to be
sexually harassed by a third party, the owner of a restaurant where two business lunches took
place. Specifically, the program manager knowingly selected a restaurant whose owner routinely
made sexually explicit comments to the Volunteers. On two occasions, the owner made lewd
and sexually offensive remarks to Volunteers in front of the program manager. In both
instances, the program manager neither intervened to ask the owner to stop making the harassing
comments, nor did he attempt to move his subordinates from the harassing environment. OIG
coordinated with Peace Corps’ Office of American Diversity Program on this case.


Sexual Assault at a Post in West Africa

A Volunteer reported that a Peace Corps PSC made inappropriate sexual advances towards a
Volunteer including groping parts of the Volunteer’s body. OIG coordinated with the country
director and regional security officer to address the issue. Ultimately the PSC was terminated.


Sexual Harassment at a Post in Central America

OIG was informed by a senior official that a PSC may have sexually harassed young female
Volunteers. The allegation was reported when the PSC applied for a full-time staff position at
the post. OIG identified several Volunteers who provided details of what they perceived as
sexual harassment and unprofessional conduct by the PSC. The PSC had previously been
counseled about similar conduct in 2009, however, the behavior continued in 2010. OIG’s
investigative findings were conveyed to the country director, who decided not to hire the PSC.
OIG also coordinated with Peace Corps’ Office of American Diversity Program concerning this
complaint.


Staff Fraternization with a Volunteer at a Post in Central America

A Peace Corps country director forwarded OIG an allegation that a Peace Corps Medical Officer
(PCMO) was having an improper relationship with a Volunteer. During interviews at the post,
OIG obtained admissions from the PCMO and the Volunteer about their sexual relationship. The
PCMO acknowledged his violation of agency policy concerning fraternization with Volunteers,
as well as his unethical involvement with his patient. The PCMO was placed on administrative
leave and then resigned shortly afterward.




October 1, 2010 to March 31, 2011                                                        29
Kickback Practices at a Post in East Africa

OIG received allegations that Peace Corps staff had received kickbacks from local vendors. OIG
conducted an investigation and determined that the suspected staff members had received money
through kickbacks from local hotels that were used by the Peace Corps for training purposes and
conferences. Per OIG investigative findings, the post terminated the personal services contracts
of the two staff members.


Embezzlement of Imprest Funds at a Post in Central America

In the previous SARC, OIG reported that a former PSC suspected of embezzling over $40,000
from the post, had been arrested by local law enforcement. In December 2010, a host country
judge requested OIG produce documentation supporting its case in order to keep the defendant
under arrest, because the former cashier denied the charges of theft. In March 2011, OIG was
notified that the judge decided to keep the former Peace Corps cashier incarcerated until the
pending trial.


Allegation of Mismanagement and Retaliation against a Volunteer at a Post in the
South Pacific

OIG investigated an allegation that a country director retaliated against a Volunteer after the
Volunteer made complaints about age discrimination and mismanagement at the post. OIG
conducted interviews and obtained witness statements. The investigation did not disclose any
evidence of age discrimination or other wrongdoing, which would have impacted the Volunteer’s
service.


Misuse of a Military Postal Address at a Post in East Asia

OIG investigated an allegation that a Volunteer had solicited a United States Air Force Airmen
to receive shipments for the Volunteer at their military postal addresses (APO) in violation of
regulations prohibiting third party shipments to an APO and Peace Corps policy. The
investigation determined that although the Volunteer had solicited the use of the APOs no
improper shipments had been made. The Volunteer completed his/her Peace Corps service.


Investigation of Federal Employees’ Compensation Act Recipients

The Investigation Unit continues to monitor Federal Employees’ Compensation Act (FECA)
claims. Last calendar year (2010), the Peace Corps paid $13.5 million for 1,386 active claims for
medical care and disability compensation for former staff members and Volunteers who were
injured or became ill on the job or during their Peace Corps service. As of the end of this
reporting period, Peace Corps has spent approximately $6.9 million in FY 2011 on active FECA
claims.


     30                                                 Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

To maintain the integrity of FECA, the Peace Corps OIG continues to coordinate with the Peace
Corps Office of Medical Services and the U.S. Department of Labor (DOL) OIG to investigate
fraud. As part of our investigative actions we review the case files of beneficiaries, conduct
background reviews, physician verifications, and site visits to ensure that recipients are properly
paid and that payments are received by the intended parties. During this reporting period OIG
investigations disclosed the following instances of overpayments and unreported income:

OIG coordinated directly with DOL to review the benefits of a former Peace Corps employee.
This review disclosed that the former employee had unreported income. An OIG investigator
obtained income statements and DOL subsequently reduced the benefits approximately $1,100
dollars a month. This reduction resulted in an annual savings of approximately $14,000. Based
upon the RPCV’s age and DOL’s average life expectancy formula (through 78 years of age), this
will result in a savings to the Peace Corps of approximately $300,000.


Coordination with Other Law Enforcement and
Federal Entities
Continued Support from Regional Security Officers World-wide

OIG continues to receive support and cooperation from other federal law enforcement agencies.
Most significant support came from the U.S. Department of State regional security officers
(RSOs) who routinely provide their time, cultural expertise, and investigative skills to assist the
Peace Corps. Critical work has also been done by RSO Foreign Service National Investigators.
The continued cooperation profoundly impacts the success of overseas OIG investigations.


Oversight Inquiry and Support

OIG initiated an oversight inquiry into the death of a Peace Corps Volunteer in Africa and the
agency’s response to the death. An Armed Forces Institute of Pathology medical examiner also
requested OIG’s investigative assistance in this matter. OIG worked with the medical examiner
as he attempted to determine the manner and cause of death of the Volunteer, who was found
dead at her residence with no apparent signs of foul play. An OIG investigator traveled to the
location, coordinated with the U.S. Embassy and local authorities, conducted interviews,
reviewed records, and developed a timeline of death. OIG collected and transported some
evidence for further analysis in U.S. laboratories. This case is ongoing.


Homeland Security Assistance with PROTECT Act Investigations

During this reporting period OIG received assistance in several PROTECT Act and child
exploitations investigations from the Department of Homeland Security, Immigration and
Customs Enforcement’s Cyber Crimes Center, and the Department of Justice’s Child
Exploitation and Obscenity Section.


October 1, 2010 to March 31, 2011                                                           31
Investigative Support from Treasury Inspector General for Tax Administration

During this reporting period, the OIG Investigative Unit received valuable law enforcement
support from the Office of Investigations of the Treasury Inspector General for Tax
Administration (TIGTA). Specifically, TIGTA outfitted all Peace Corps OIG investigators with
body armor that was designated as excess law enforcement equipment at TIGTA. This support
between Inspectors General resulted in a net savings for the government and exemplifies
TIGTA’s continued support to Federal law enforcement organizations throughout the country.


Investigative Assistance of FECA Cases

Peace Corps OIG received a request from the U.S. Architect of the Capitol OIG with regard to
identifying and conducting FECA fraud cases. Peace Corps OIG has committed to providing
contacts and lessons learned from recent FECA cases.




     32                                                Semiannual Report to Congress
Tables




This poster demonstrates the reasons why independent oversight is essential for OIG
to effectively carry out its work.
                                              Tables

1: List of Reports: Audits and Program Evaluations

                                       Headquarters Evaluations
Volunteer Delivery System Follow-up Program Evaluation (IG-11-01-E)


                                              Post Audits
PC/Belize: Audit (IG-11-04-A)
PC/Ethiopia: Audit (IG-11-02-A)
PC/Mexico: Audit (IG-11-01-A)
PC/Mozambique: Audit (IG-11-05-A)
PC/Togo: Audit (IG-11-03-A)
PC/Ukraine: Audit (IG-11-06-A)


                                     Country Program Evaluations
PC/Ethiopia: Country Program Evaluation (IG-11-02-E)
PC/Jamaica: Country Program Evaluation (IG-11-03-E)




    34                                                       Semiannual Report to Congress
                                 PEACE CORPS OFFICE OF INSPECTOR GENERAL


2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use

                                                                    Questioned   Unsupported      Funds Put to
                              Report
                                                                      Costs1        Costs2         Better Use3
    PC/Belize: Audit (IG-11-04-A)
    A.1 Incorrect holiday pay rate on short-term PSC contracts.         -             -               $8,505


    PC/Ethiopia: Audit (IG-11-02-A)
    C.1 Five leases improperly included payment terms in U.S.
    dollar amounts resulting in the post paying significantly
                                                                        -             -              $82,000
    higher amounts due to the hyper-inflation and the devaluation
    of local currency.


                                                     Sub-Totals         -             -              $90,505
                                                           Total                     $ 90,505




1
  Questioned Costs – a cost that is an alleged violation of government or Peace Corps regulations. For example:
prohibited purchases and expenditure of funds for purposes that do not relate to the Peace Corps mission.
2
  Unsupported Costs – a cost that is not supported by adequate documentation.
3
  Funds Put to Better Use – a cost that could be used more efficiently, such as costs for unnecessary goods or
services.

October 1, 2010 to March 31, 2011                                                                         35
3: Status of Reports Issued by OIG with Questioned and Unsupported Costs

                                                                  Number of   Questioned    Unsupported
                                                                   Reports      Costs          Costs
 A. Reports issued prior to this period
  For which no management decision has been made on any issue         -           -              -
  For which some decisions had been made on some issues


 B. Reports issued during this period                                 -           -              -


 Totals of Categories A and B                                         0          $0             $0


 C. For which final management decisions were made during this period
  Dollar value of disallowed costs                                    -           -              -
  Dollar value of costs not disallowed                                -           -              -


 D. For which no management decisions were made during this
                                                                      -           -              -
 period


 E. For which management decisions were made on some
                                                                      -           -              -
 issues during this period


 Totals of Categories C, D, and E                                     -           -              -
 Total questioned costs and unsupported costs                         0                    $0




     36                                                         Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


4: Status of Reports Issued by OIG with Funds to be Put to Better Use

                                                                        Number of   Funds Put to
                                                                         Reports     Better Use
 A. Reports issued prior to this period
  For which no management decision has been made on any issue               -            -
  For which some decisions had been made on some issues                     -            -


 B. Reports issued during this period                                       2         $90,505


 Totals of Categories A and B                                               2         $90,505


 C. For which final management decisions were made during this period
  Dollar value of recommendations agreed to by management                   2         $90,505
  Dollar value of recommendations not agreed to by management               -            -


 D. For which no management decisions were made during this
                                                                            -            -
 period


 E. For which management decisions were made on some issues
                                                                            -            -
 during this period


 Totals of Categories C, D, and E                                           2         $90,505




October 1, 2010 to March 31, 2011                                                            37
5: Recommendations on which Corrective Action has not been Completed

Audits and Evaluations
                                   Open Recommendations 60 to 119 Days
                                                                                                  Agency
                                                                                                Concurrence4




                                                                                                 Concur



                                                                                                                Partial
                                                            Date          Total Open




                                                                                                          Non
                          Report
                                                           Issued      Recommendations

    PC/Ethiopia: Evaluation (IG-11-02-E)                 1/14/2011             13                7        1     5
                                                              Total            13                7        1     5

                                 Open Recommendations 120 to 179 Days
                                                            Date          Total Open
                          Report
                                                           Issued      Recommendations
    PC/HQ Volunteer Delivery System: Evaluation
                                                         11/6/2010             22               22        -      -
    (IG-11-01-E)
                                                              Total            22               22        -      -

                              Open Recommendations More than 180 Days
                                                            Date          Total Open
                          Report
                                                           Issued      Recommendations
    PC/HQ Medical Clearance System: Evaluation
                                                         3/31/2008             9                 8        -     1
    (IG-08-08-E)
    PC/HQ Volunteer Safety and Security: Evaluation
                                                         8/28/2008             6                 2        1     3
    (IG-08-13-E)
    PC/Guinea: Audit (IG-09-09-A)                        3/31/2009             2                 2        -     -
    PC/HQ Purchase Card Program: Audit (IG-09-08-A)      3/31/2009             5                 1        3     1
    PC/Burkina Faso: Audit (IG-10-01-A)                 10/27/2009             1                 1        -     -
    PC/Paraguay: Audit (IG-10-10-A)                       8/3/2010             8                 8        -     -
    PC/Moldova: Audit (IG-10-11-A)                       8/30/2010             1                 1        -     -
    PC/Kenya: Audit (IG-10-12- A)                        9/28/2010             1                 -        1     -
    PC/HQ Office of Chief Information Officer: Budget
                                                         1/11/2010             21               16        4     1
    Formulation and Management Audit (IG-10-05-A)
    PC/HQ Peace Corps’s Process for Soliciting,
    Awarding, and Administering Contracts                3/22/2010             9                 8        1      -
    (IG-10-06-AA)
    PC/HQ Office of Safety and Security: Audit
                                                          4/1/2010             8                 7        -     1
    (IG-10-08-A)
                                                              Total            71               54        10    7




4
 The sum of open recommendations in the Agency Concurrence columns equals the number in the Total Open
Recommendations column i.e.) There are currently 13 open recommendations for the PC/Ethiopia Evaluation of
which the agency concurred with 7, non-concurred with 1, and partially concurred with 5.

        38                                                      Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL

Financial Statement and FISMA Recommendations 5

                                           Open Recommendations
                                                                                                       Agency
                                                                                                     Concurrence




                                                                                                     Concur



                                                                                                                      Partial
                                                              Date           Total Open




                                                                                                                Non
                         Report
                                                             Issued       Recommendations

    PC/HQ FY 2010 Financial Statement Audit                                                           -         -      -
                                                           11/15/2010             14
    (IG-11-00-A)
    PC/HQ FY 2010 Information Security Program Audit                                                  -         -      -
                                                           11/18/2010             23
    (IG-11-99-A)
                                                                 Total            37                  -         -      -




Special Reviews

                             Open Recommendations More than 180 Days
                                                                                                       Agency
                                                                                                     Concurrence




                                                                                                      Concur



                                                                                                                      Partial
                                                              Date           Total Open




                                                                                                                Non
                         Report
                                                             Issued       Recommendations

    PC/Ecuador: Special Review (IG-10-05-SR)                9/2/2010               6                  4         2      -
                                                                 Total             6                  4         2      -




5
 All recommendations issued in conjunction with these two reports are part of a normal 12-month audit cycle. As a
result, recommendations made during a given fiscal year will remain in an open status during the entire subsequent
fiscal year. At the beginning of each new fiscal year the auditors will notify management of whether sufficient
corrective actions have been taken regarding the prior year recommendations and issue their current notification of
findings and recommendations. Prior year findings and recommendations may be re-issued if management has not
taken sufficient corrective actions.

October 1, 2010 to March 31, 2011                                                                              39
6: Summary of Investigative Activity

                                     Cases                                      Number                 Value
    Cases Opened as of 10/01/2010                                                  38
    Cases Closed that were previously Opened                                       25
    Cases Opened during 10/1/2010 -3/31/2011                                        7
    Cases Opened and Closed during 10/1/2010 -3/31/2011                             4
    Total Open Cases as of 4/1/2011                                                16
    Referrals for Department of Justice Prosecution                                 3
    Referrals for Agency Administrative Action                                      7
    Referrals to Other Agency                                                       1


                             Domestic Court Actions
    Trial (s) Pending                                                               0
    Convictions                                                                     1
    Acquittals                                                                      0
    Judgments                                                                       1
    Fines/Restitution                                                               1                 $33,000


                             Overseas Court Actions
    Ongoing Prosecutions                                                            0
    Convictions                                                                     0
    Acquittals                                                                      0
    Judgments                                                                       0
    Fines/Restitution                                                               0


                               Monetary Results
    Annual Savings                                                                  1                 $14,364
    Recoveries/Restitution                                                          0
    Cost Avoidance                                                                  1                $301,644


                             Administrative Actions6
    Employees (Resignations and Terminations)                                       6
    Other Employee Actions                                                          0
    Other Persons/Businesses                                                        0
    Suspension/Debarment Referrals                                                  1



6
 For the purpose of reporting investigative activity, Peace Corps Volunteers/trainees are included under the
categories of ―Referrals for Agency Administrative Action‖ and ―Administrative Actions.‖

         40                                                         Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


7: Summary of Hotline and Other Complaints

                                                                       Number
Complaints Received                                                      28
Complaints Closed                                                        28


Awaiting OIG Action                                                      0
Resulted in Investigations                                               4
Resulted in Audits                                                       0
Resulted in Evaluations                                                  0
Referred to Agency Management                                            0
Referred to Other Agency                                                 0
No Action Needed                                                         0




October 1, 2010 to March 31, 2011                                        41
8: References to Reporting Requirements of the Inspector General Act

  Act Reference                                 Reporting Requirements                            Page
 Section 4(a)(2)    Review of legislation and regulations                                          n/a
 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                8-32
 Section 5(a)(2)    Significant recommendations for corrective actions                            8-32
                    Prior significant recommendations on which corrective action has not been
 Section 5(a)(3)                                                                                   38
                    completed
 Section 5(a)(4)    Matters referred to prosecuting authorities                                   26-32
 Section 5(a)(5)    Summary of instances where information was refused                             n/a
 Section 5(a)(6)    List of audit reports, including evaluations, inspections, and reviews         34
 Section 5(a)(7)    Summary of significant reports                                                10-32
 Section 5(a)(8)    Statistical table - questioned and unsupported costs                           35
 Section 5(a)(9)    Statistical table - funds to be put to better use                              37
 Section 5(a)(10)   Summary of previous audit reports without management decisions                 n/a
 Section 5(a)(11)   Significant revised management decisions                                       n/a
 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees    n/a
 Section 5(a)(13)   Information under Federal Financial Management Improvement Act of 1996         n/a




      42                                                                Semiannual Report to Congress
Appendices




Peace Corps drivers are a critical part of post operations. Here, PC/Mozambique
driver Pedro Lihahe chats with a village resident during a Volunteer visit.
                                           Appendices
A: Reporting of Peer Reviews

Pursuant to Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Public Law No. 111-203),7 the Peace Corps OIG reports the following peer review information:

During the reporting period, there were no peer reviews conducted of the Peace Corps OIG. The
Audit and Investigation Units are required to conduct peer reviews and be subject of a peer
review every three years.


Audit Unit

In March 2008, The National Endowment for the Arts OIG conducted a peer review of the Audit
Unit of the Peace Corps OIG in effect for the year ending September 30, 2007. There were no
recommendations made.

The Audit Unit has until June 30, 2011 to receive the next peer review report. The Government
Printing Office is scheduled to conduct and report the next peer review by this date.


Investigation Unit

The Investigation Unit is expected to undergo a peer review in early 2013. The Investigation
Unit was recently included in the CIGIE peer review schedule after having been granted
authority from the Attorney General to exercise statutory law enforcement powers.


B: Contract Audit Reports

Pursuant to Section 845A of the National Defense Authorization Act for Fiscal
Year 2008 (Public Law No. 110-181), the Peace Corps OIG reports final contract audit reports
with significant audit findings:

During this reporting period, OIG did not issue any contract audit reports.




7
 Section 989C of the Frank Wall Street Reform and Consumer Protection Act amends Section 5(a) of the Inspector
General Act of 1978 (5 U.S.C. App.)

      44                                                        Semiannual Report to Congress
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps

 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                       Call:
                         Main Office: 202.692.2900
                         24-hour Hotline: 202.692.2915
                         24-hour Toll-Free Hotline in the U.S.: 800.233.5874

                                       Write:
                         Peace Corps
                         Attn: Inspector General
                         Paul D. Coverdell Peace Corps Headquarters
                         1111 20th St., NW
                         Washington, DC 20526
                         Peace Corps
                         Attn: Inspector General
                         P.O. Box 57129
                         Washington, DC 20037-7129

                                       Email:
                         OIG@peacecorps.gov

                                      Website:
                         www.peacecorps.gov/OIG
                         Web form: www.peacecorps.gov/ContactOIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
PAGE INTENTIONALLY LEFT BLANK
PAGE INTENTIONALLY LEFT BLANK
